BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Human Rights Clinics,
Law Professors, and Non-Profit Organizations in
Support of Petitioner in 19-1291, Charles Hamner v.
Danny Burls, Warden, et al., was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 11th day of June, 2020:
Daniel M. Greenfield
MacArthur Justice Center
Northwestern Pritzker School of Law
375 E. Chicago Ave.
Chicago, IL 60611-3069
(312) 503-8538
daniel-greenfield@law .northwestern.ed u
Counsel for Petitioner
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas. bronni@arkansasag.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Claudia Flores
Counsel of Record
Nino Guruli
MANDEL LEGAL AID CLINIC
UNIVERSITY OF CHICAGO
LAW SCHOOL
6020 S. University Ave.
Chicago, IL 60637
cmflores@uchicago.edu
nguruli@uchicago.edu
(773) 702-6498
(773) 702-0758
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 11, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ ~ If , c)od"iJ
c:/oti,t /J ' ,~

Notary Public

7

[seal]

My Comm,ss1on Expires
February 14, 2023

